No. 20-7327

IN THE

Supreme Court of the Anited States

TIMOTHY A. WARD,

Petitioner,
Vv.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE

I, Caroline S. Platt, do swear or declare that on this 7th day of June, 2021, as
required by Supreme Court Rule 29, I have served the enclosed REPLY BRIEF OF
THE PETITIONER on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by delivering to Federal Express,
for second-day delivery, a package properly addressed to each of them and
containing the above documents.

The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 7, 2021.

(advo ' 0a

Caroline S. Platt
